5/1/2020

Multi-Use Account Consumer Credit Agreement | John Deere US

MULTI-USE ACCOUNT
CONSUMER USE CREDIT AGREEMENT.
THIS IS YOUR AGREEMENT.
PLEASE READ IT AND KEEP IT FOR YOUR
RECORDS.
Account Opening, Application and Solicitation Disclosures
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

15.15% for Preferred Purchases
17.15% for Merchant Authorized Purchases
These APRs will vary with the market based on the Prime Rate.

https://www.deere.com/en/finance/financing/terms/consumer-terms/

1/21

5/1/2020

Multi-Use Account Consumer Credit Agreement | John Deere US

Penalty APR and When it

None

Applies
How to Avoid Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will

on Purchases

not charge you interest on purchases if you pay your entire balance due by
the due date each month.

Minimum Interest Charge

None

For Credit Card Tips from the

To learn more about factors to consider when applying for or using a credit

Consumer Financial

card, visit the website of the Consumer Financial Protection Bureau at http://w

Protection Bureau

ww.consumerfinance.gov/learnmore
Fees

Penalty Fees
Late Payment Fee

Up to $35.00

Returned Payment Fee

Up to $35.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)." See
your account agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your
account agreement.
APPLICANT(S) ACKNOWLEDGE THAT (1) SELLER HAS NOT REPRESENTED THAT THE TERMS OF THIS
FINANCING ARE MORE OR LESS FAVORABLE THAN OTHER FINANCING; (2) SELLER IS NOT APPLICANT'S
AGENT IN OBTAINING THE FINANCING; (3) APPLICANT MAY OBTAIN FINANCING FROM OTHER SOURCES; (4)
SELLER MAY BE COMPENSATED FOR SERVICES INVOLVED IN ARRANGING THIS FINANCING.

https://www.deere.com/en/finance/financing/terms/consumer-terms/

2/21

5/1/2020

Multi-Use Account Consumer Credit Agreement | John Deere US

TERMINOLOGY. In this Agreement the words you, your, and yours mean each person who applies for and is granted a
Multi-Use Account, including any co-applicant identified on the application, as well as any person permitted to use the
Account. JDF means John Deere Financial, f.s.b., or any subsequent holder of the Account or any balances arising
under the Account. When the terms "finance charge" and "interest charge" are used in this agreement and on other
documents related to your account, they have the same meaning.
MULTI-USE ACCOUNT. You request a Multi-Use Account from JDF, and further authorize JDF to issue a MultiUse Account card to each merchant from whom you may make a purchase. By applying for a Preferred Account, or by
using a Merchant Authorized Account to make a purchase from a merchant who requests JDF to open one for you, you
agree that this Credit Agreement will apply to all purchases made through your Multi-Use Account by you or any person
you authorize. This arises out of a consumer credit sale. You authorize JDF to honor any purchases you make by mail or
telephone, internet, facsimile transmission (fax) or other electronic means on your Account. You agree that a signature is
not necessary as identification in such cases. You agree that any authorized use of your Account constitutes your
acceptance of all the terms and conditions of this Agreement, as it may be amended from time to time. If you submit
your application to JDF by internet, facsimile transmission (fax) or other electronic means, you agree that the application
will have the same effect as a signed original. You agree that you will promptly notify JDF in writing of any suspected
loss, theft, or unauthorized use of the Account. You may be liable for the unauthorized use of your Multi-Use Account
before you notify JDF in writing at John Deere Financial, P.O. Box 5328, Madison, Wisconsin 53705-0328 of the
unauthorized use. In any case, your liability will not exceed $50. You consent and agree that your telephone
conversations with JDF may be recorded to further improve JDF's customer service. You agree that JDF and any
affiliate and any retained debt collector may place phone calls to you using any telephone number, including a mobile
phone number, you have provided to JDF, any affiliate or any retained debt collector, including calls using an automatic
dialing and announcing device and prerecorded calls, and that such calls are not "unsolicited" under state or federal law.
You agree to give JDF prompt notice of any change in your name, mailing address, telephone number or place of
employment. You agree that until JDF receives notice of your new address, JDF may continue to send statements and
other notices to the address you gave JDF on the application for this Account. You agree that, for the purposes of this
Agreement, you will be deemed to "reside" in the state of your billing address as shown on JDF's records. If more than
https://www.deere.com/en/finance/financing/terms/consumer-terms/

3/21

5/1/2020

Multi-Use Account Consumer Credit Agreement | John Deere US

one person or entity signed the application, each is jointly and severally responsible for all obligations, and amounts
due, under this Agreement. This Agreement is not binding on JDF until JDF has approved your credit and given you
notice of approval. If Maryland law applies, Subtitle 9 of Title 12 of the Maryland Commercial Law will apply.
ACCOUNT TYPE. If your Multi-Use Account arose through JDF's purchase of your existing account balance with a
merchant, or at the request of one or more merchants, your Account may be classified as a Merchant Authorized
Account. Certain special features or promotions that JDF may offer from time to time may be made available only to
Preferred Accounts. Merchant Authorized Accounts are useable only at a merchant who asked JDF to finance your
purchases from them. JDF may, in its sole discretion, classify your account as a Preferred Account. When JDF opens
your Account, and on each monthly statement, JDF will indicate whether your Account is either a Preferred or Merchant
Authorized Account.
CREDIT LIMITS. JDF will establish and advise you of your credit limit.
You agree that JDF may increase or decrease your credit limit at any time, in JDF’s sole discretion, without
prior notice to you.
ACCOUNT USE. By applying for or accepting a Consumer Multi-Use Account, you agree to use your Account primarily
to make purchases for personal, family or household use, rather than for agricultural, commercial or governmental use.
You agree to pay JDF all amounts charged by the use of the Account, plus Interest Charges, and the other charges
described below, as provided in this Agreement.
You agree that JDF is not responsible for the refusal of anyone to allow a purchase to be made through your
Multi-Use Account.
MONTHLY STATEMENT. JDF will send you a monthly statement whenever there is activity on your Account, unless the
only activity is a payment in full. JDF will bill you on the monthly statement for all amounts you owe. Your monthly
statement will show your New Balance, any Late Fees, any Interest Charge, the Minimum Required Payment and the
Payment Due Date. In addition, it will show your Credit Limit, an itemized list of current Purchases, Payments, and
https://www.deere.com/en/finance/financing/terms/consumer-terms/

4/21

5/1/2020

Multi-Use Account Consumer Credit Agreement | John Deere US

Credits, as well as other information concerning your Account. JDF will send your monthly statements on dates and in
intervals determined by JDF. Such statement shall be deemed correct and accepted by you unless JDF is notified to the
contrary in writing within 60 days of the date of that statement. If you think your monthly statement is incorrect, write to
JDF on a separate sheet at the address shown on the back of your billing statement. Describe the error as best you can
and include your Account number in all correspondence.
PAYMENT. The Payment Due Date is the date the payment must be received at the address shown on the front of your
monthly statement. You may at any time pay your entire New Balance or pay more than the Minimum Required
Payment, and you may avoid or reduce Interest Charges by doing so. However, payment of more than the Minimum
Required Payment, while reducing your balance will not prepay your Account or be applied against future Minimum
Required Payments. All payments must be in U.S. dollars and drawn on funds on deposit in the United States. If your
Payment Due Date falls on a date which we do not receive or accept payments by mail (including weekends and
holidays) we will not treat the payment received the next business day as late for any purpose. For information about
your rights regarding billing errors, refunds or adjustments, please refer to the section - What To Do If There's An Error
In Your Bill. Payments must be sent to John Deere Financial, at the address designated on your monthly payment stub
or to any other payment address JDF later designates on your monthly statement payment stub. We will not accept any
payments at our offices.
INTEREST CHARGE RATES. Interest Charges on your Multi-Use Account may be calculated using variable rates that
will be determined by reference to a "Base Rate" to which is added a "Spread" to arrive at the current rate.
The Base Rate from which your variable rates will be determined is the annual percentage rate of interest announced
publicly from time to time by Citibank, N.A. in New York, New York as the base rate it uses for interest rate
determinations ("Prime Rate"), which was in effect at the close of business on the fifteenth (15th) calendar day of
each month, or the next succeeding business day if the fifteenth is not a business day ("Reference Day"). The
Spreads added to the Base Rate to determine the ANNUAL PERCENTAGE RATES (APRs) that will apply to your
Account will be:

https://www.deere.com/en/finance/financing/terms/consumer-terms/

5/21

5/1/2020

Multi-Use Account Consumer Credit Agreement | John Deere US

Spread

Preferred

Merchant Authorized

11.9%

13.9%

Rate increases and decreases, that result from changes in the Base Rate will take effect on the first day of the month, or
the next succeeding business day if the first day is not a business day, after the Reference Day on which the Base Rate
changes.
Changes in your variable rates will apply to your existing Account balance as well as to future purchases under your
Account. An increase in your rate will increase the total Interest Charge accruing on your Account and the balance on
which your Minimum Required Payment is calculated. For example, if the Base Rate (and thus the applicable variable
rate) were to increase by 5%, and the average daily balance to which the new rate applied was $1,000, your INTEREST
CHARGE for that month would increase by $4.17 as a result of the increase in the variable rate.
Currently effective rates are shown below:
Daily Periodic Rate(s)
Preferred
Purchases

Rate:

.041507%

Merchant
Authorized
Purchases
.046986%

Annual Percentage Rate(s)
Preferred
Purchases
15.15%

Merchant
Authorized
Purchases
17.15%

The above rates are correct as of 04/01/2020, but are subject to change after that date. To find out what may have
changed, write to John Deere Financial, P.O. Box 5328, Madison, Wisconsin 53705-0328; or call Customer Service at 1800-356-9033.
INTEREST CHARGE CALCULATION. Interest Charges will accrue on your Account Balance as follows:

https://www.deere.com/en/finance/financing/terms/consumer-terms/

6/21

5/1/2020

Multi-Use Account Consumer Credit Agreement | John Deere US

On purchases JDF will add an Interest Charge, calculated as shown below, if your New Balance is not paid in full on
or before the Payment Due Date. To avoid additional Interest Charges on your purchases, you must pay the New
Balance in full on or before the Payment Due Date.
The amount of your Interest Charges will be determined as follows:
JDF uses the daily periodic rates and corresponding APRs shown in this Agreement. The applicable periodic rate is
applied to the "Average Daily Balance" of your purchases, including current transactions during the current billing
cycle.
To get the "Average Daily Balance", JDF takes the beginning balance of your purchases, starting with any Previous
Balance outstanding on the first day of the monthly billing cycle, adds any new purchases and debits (other than late
payment fees) and subtracts any payments or credits. This determines the daily balance. Unless JDF elects to use a
later date, purchases are added to the daily balance as of the date of purchase.
JDF totals the daily balances for the billing cycle and divides the total by the number of days in the billing cycle. This
gives JDF the "Average Daily Balance" which is shown on your monthly statement. Interest Charges may accrue on
Special Promotions Transactions at a different rate, as explained in the Special Promotions section of this Agreement.
DEFAULT INTEREST CHARGE RATE. If you are in default, you may no longer qualify for any reduced interest rate
Special Promotions and, you agree that, at JDF's option, the APR applicable to any outstanding reduced interest rate
Special Promotion(s), may be increased to the APR described in this Agreement.
MINIMUM REQUIRED PAYMENT. You agree to pay each month a Minimum Required Payment equal to:
1. Any late payment fee due; plus
2. Any additional fees due; plus
3. Any amount past due; plus
4. For Purchases:

https://www.deere.com/en/finance/financing/terms/consumer-terms/

7/21

5/1/2020

Multi-Use Account Consumer Credit Agreement | John Deere US

a. Either the greater of: $25, or 10% of your New Balance (less any
Conversion Balance {balances transferred to John Deere Financial from a
merchant's accounts receivable} and less any Special Promotions
Transaction(s) balances on which no payment is due) if it exceeds $25;
b. Or your entire New Balance (less any Conversion Balance and Special Promotions
Transaction(s) balances on which no payment is due), if it is less than $25.
5. The amount of any Special Promotions Transaction that is due;
6. For Conversion Balances:
a. Either the greater of $25, or 10% of your Conversion Balance,
if that balance exceeds $25;
b. Or your entire Conversion Balance, if it is less than $25.
SPECIAL PROMOTIONS. From time to time special financing terms, such as extended free periods, incentive interest
rates on certain purchases or for limited time periods, or other promotions may be available, at the discretion of JDF, for
the purchase of certain items from participating merchants. These special terms will be disclosed by the merchant at the
time of purchase. Purchases you make during these special promotions will be separately identified on your monthly
statement and will become part of the balance on which your Interest Charge and Minimum Required Payment are
calculated at the time provided in the special promotions terms disclosure.
NO INTEREST WITH PAYMENT TRANSACTIONS. Unless otherwise disclosed, minimum monthly payments will be
made and Interest Charges will not accrue during any disclosed No Interest with Payment period described. Interest
Charges will accrue at the APR applicable to your Account after the due date of your No Interest with Payment
transaction, unless otherwise disclosed. If the No Interest with Payment transaction is not paid in full during the
introductory No Interest with Payment period, interest charges will accrue at the current effective rate, which
will vary. To find out the current effective rate on your Account, write to JDF at John Deere Financial, P.O. Box
5328, Madison, Wisconsin 53705-0328; or call Customer Service at 1-800-356-9033.

https://www.deere.com/en/finance/financing/terms/consumer-terms/

8/21

5/1/2020

Multi-Use Account Consumer Credit Agreement | John Deere US

NO INTEREST IF PAID IN FULL TRANSACTIONS. Unless otherwise disclosed, minimum monthly payments will be
made and Interest Charges will accrue during any No Interest if Paid in Full period. No Interest Charge will be due until
the end of the No Interest if Paid in Full period and any accrued Interest Charge will be waived if the entire No Interest if
Paid in Full balance is paid in full by the end of this No Interest if Paid in Full period. If the No Interest if Paid in Full
transaction balance is not paid in full during the introductory No Interest if Paid in Full period, interest charges
will accrue from the transaction date at the current effective rate, which will vary. To find out the current
effective rate on your Account, write to JDF at John Deere Financial, P.O. Box 5328, Madison, Wisconsin 537050328; or call Customer Service at 1-800-356-9033.
OTHER FEES and CHARGES.
LATE PAYMENT FEES: JDF may apply to your Account a late payment fee of $25 the first time JDF does not receive
your payment of at least the current portion of your Minimum Required Payment (Minimum Required Payment plus
unpaid late payment fees and past due amounts), by the payment due date shown on your statement, and a $35 fee for
any additional late payments during the next six statement billing cycles.
RETURNED PAYMENT FEE. If you send JDF a check or electronic payment authorization that is dishonored upon first
presentment, JDF may add to your Account a fee of $25 on the first dishonored payment, and a $35 fee for any
additional dishonored payments during the next six statement billing cycles.
COLLECTION COSTS. Upon default, you will pay for expenses incurred in connection with the enforcement of our
remedies, including, without limitation, repossession, repair and collections costs, attorney's fees, court costs and
related fees including any bankruptcy fees and costs, to the extent permitted by applicable law. If New Hampshire law
applies, those fees may be awarded to you if you prevail in any such action, suit or proceeding.
ACCEPTING PAYMENT. JDF can accept late or partial payments, as well as payments marked "paid in full" or with
other restrictive endorsements, without losing any of JDF's rights under this Agreement

https://www.deere.com/en/finance/financing/terms/consumer-terms/

9/21

5/1/2020

Multi-Use Account Consumer Credit Agreement | John Deere US

CREDIT REPORTS. JDF may report your performance under this Agreement to credit reporting agencies and others
who request a credit reference from JDF. JDF may ask credit reporting agencies or others you list as a credit reference
for consumer reports or information regarding your credit history at any time for all legitimate purposes, including credit
decisions and the review and collection of your account. If you request, you will be provided with the name and address
of any credit reporting agency that provided a report in connection with this application. As required by law, you are
hereby notified that a negative credit report reflecting on your credit record may be submitted to a credit reporting
agency if you fail to fulfill the terms of your credit obligations. You also authorize JDF to disclose financial information
about you as described in this Agreement and future notices JDF may send you.
CLOSING YOUR ACCOUNT. You may close your Account at any time by notifying JDF in writing. You agree that JDF
may close or suspend your Account to future purchases at any time without prior notice. You agree that JDF may close
or suspend your Account to future purchases if your Account has no activity for 12 or more months. You agree that,
regardless of the closing or suspension of your Account, you remain responsible for paying the amount you owe JDF
according to the terms of this Agreement.
SECURITY INTEREST. Unless you reside in NC and the APR on a purchase or transaction exceeds 15%, you grant
JDF a purchase money security interest in all merchandise purchased through your Account, and its proceeds,
including insurance proceeds. JDF's security interest continues until such merchandise is paid for in full by application of
your payments in the manner described in this Agreement.
PAYMENT APPLICATION. You agree that your Minimum Required Payment will be applied as JDF determines in its
sole discretion. You agree that JDF has this discretion and that JDF may exercise it to suit its own convenience and
interests, without further notice to you. You also agree that JDF may change how it applies payments at any time without
notice to you. You acknowledge that the exercise of this discretion by JDF may result in cases in which the application of
your payments to the Account creates higher Interest Charges than other payment application methods and that this
may include payments allocated to balances with lower APRs before balances with higher APRs and/or to balances with
longer promotional periods before balances with shorter or no promotional periods. JDF will allocate the entire amount
paid by you in excess of the Minimum Required Payment amount to the balances on which interest is deferred during
https://www.deere.com/en/finance/financing/terms/consumer-terms/

10/21

5/1/2020

Multi-Use Account Consumer Credit Agreement | John Deere US

the last 2 billing cycles immediately preceding the expiration of the period during which interest is deferred. JDF shall
apply any remaining amount paid by you first to the transaction balance bearing the next highest rate of interest, and
then to each successive transaction balance bearing the next highest rate of interest, until all the amount you paid is
applied to the Account.
You agree that your payments will be credited as of the date of receipt at the address on the payment stub of your
Monthly Statement if received by 5:00 p.m. Central Time Monday through Friday (otherwise next business day). If
payment is not accompanied by the payment stub or account number, is not received at that location, or is not made in
U.S. Dollars, by check or money order, credit may be delayed up to two business days.
MERCHANT CHARGEBACKS. JDF may charge back to a merchant who sold goods or services to you on your
Account, any part of your Account balance related to those purchases. In that event, this Agreement will be deemed
assigned to the merchant to the extent of the chargeback. You agree to such an assignment and further agree to pay the
merchant the amount of such chargeback in accordance with the terms of this Agreement.
DEFAULT. You agree that you will be in default if: (a) you fail to pay the Minimum Required Payment within 20 days after
the Payment Due Date on two occasions within any 12-month period; (b) the value of JDF's security interest in any
collateral is materially impaired; (c) your ability to repay is materially reduced by your exceeding your credit limit, by a
change in your employment, by a change in your other obligations, by bankruptcy or insolvency proceedings involving
you, or (for community property state residents only) by a change in your marital status or domicile; (d) you die or
become incompetent; (e) you provided JDF false or misleading information relating to your credit application or Account;
(f) you fail to perform any other of your obligations under the terms of this Agreement as it may be amended; or (g) you
are in default under any agreement you have with JDF or any of its affiliates.
You agree that, upon your default, JDF may close your Account to future purchases and that JDF may demand
immediate payment of your entire Account balance, after giving you any notice and opportunity to cure the default
required by applicable law. In addition, you agree that JDF shall have all the rights of a secured creditor under the
Uniform Commercial Code and other applicable law.

https://www.deere.com/en/finance/financing/terms/consumer-terms/

11/21

5/1/2020

Multi-Use Account Consumer Credit Agreement | John Deere US

DELAY IN ENFORCEMENT. You agree that JDF can delay enforcing its rights under this Agreement without losing
them.
ELECTRONIC DISCLOSURES. You agree that any notices and disclosures related to your account can be delivered to
you in printed form or by electronic means if you provided an electronic mail address to JDF when you applied for this
Account or at a later date. Until JDF receives notice of a new electronic mail address, JDF may continue to send such
notices and disclosures to the electronic mail address you most recently provided to JDF.
GOVERNING LAW. This Agreement must be approved, and all charges and payments to your Account processed by
JDF at its office in Madison, Wisconsin. Therefore this Agreement and your Account will be governed by the substantive
law of the United States and to the extent state law applies to this Agreement, the substantive law of the State of
Wisconsin, regardless of whether or not you reside in Wisconsin. The law of your state of residence will apply to JDF's
recovery of any collateral located there. This is the entire Agreement between you and JDF relating to your Multi-Use
Account and no oral changes can be made.
Invalidity of any provision of this Agreement shall not affect the validity and enforceability of the remainder of its terms.
CHANGING THIS AGREEMENT. IMPORTANT: READ BEFORE SIGNING. THE TERMS OF THIS AGREEMENT
SHOULD BE READ CAREFULLY BECAUSE ONLY THOSE TERMS IN WRITING ARE ENFORCEABLE. NO OTHER
TERMS OR ORAL PROMISES NOT CONTAINED IN THIS WRITTEN CONTRACT MAY BE LEGALLY ENFORCED.
YOU MAY CHANGE THE TERMS OF THIS AGREEMENT ONLY BY ANOTHER WRITTEN AGREEMENT. You agree
that JDF may change this Agreement, including the Interest Charge Calculation and the APR, at any time, by providing
prior notice to you. To the extent that the law permits and JDF indicates in the notice, the changes will apply to your
existing Account balance as well as to future transactions.
NOTICE TO ACTIVE DUTY SERVICEMEMBERS AND THEIR DEPENDENTS. Federal law provides important
protections to members of the Armed Forces and their dependents relating to extensions of consumer credit. In general,
the cost of consumer credit to a member of the Armed Forces and his or her dependent may not exceed an annual
percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or account: the costs
https://www.deere.com/en/finance/financing/terms/consumer-terms/

12/21

5/1/2020

Multi-Use Account Consumer Credit Agreement | John Deere US

associated with credit insurance premiums; fees for ancillary products sold in connection with the credit transaction; any
application fee charged (other than certain application fees for specified credit transactions or accounts); and any
participation fee charged (other than certain participation fees for a credit card account).
TOLL-FREE NUMBER FOR ACTIVE DUTY SERVICE MEMBERS AND THEIR DEPENDENTS. If you would like to
receive a statement of the Military Annual Percentage Rate applicable to this extension of consumer credit, and/or a
clear description of the payment obligation of the covered borrower, please contact us at 800-519-2242.
ARBITRATION OF DISPUTES. In the event of any past, present or future claim or dispute between you and JDF arising
from or relating to your Account, any prior account you have had with JDF, your application, the relationships which
result from your Account or the enforceability or scope of this arbitration provision, of the Agreement or of any prior
agreement, you or JDF may elect to resolve the claim or dispute by binding arbitration.
FEDERAL LAW PROVIDES THAT JDF CANNOT REQUIRE CERTAIN ACTIVE DUTY MILITARY SERVICEMEMBERS
OR THEIR DEPENDENTS (“COVERED BORROWERS”) TO RESOLVE THESE CLAIMS OR DISPUTES BY BINDING
ARBITRATION. IF YOU QUALIFY UNDER FEDERAL LAW AS A COVERED BORROWER, THEN THIS SECTION
DOES NOT APPLY TO YOU AND NEITHER JDF NOR YOU MAY ELECT TO RESOLVE SUCH CLAIMS OR
DISPUTES BY BINDING ARBITRATION. IF YOU DO NOT QUALIFY UNDER FEDERAL LAW AS A COVERED
BORROWER, THEN THIS SECTION DOES APPLY TO YOU.
This includes any such claim or dispute, whether based upon contract, property, tort, statute, common law or equity,
other than a claim relating to JDF's right to repossess the merchandise purchased through your account by self-help, if
permitted, or by judicial process. The parties agree and understand that the arbitration shall have all powers provided by
law and the Contract. These powers shall include all legal and equitable remedies including, but not limited to money
damages, declaratory relief, and injunctive relief.
The parties agree and understand that they choose arbitration instead of litigation to resolve disputes. The parties
understand that they have the right or opportunity to litigate disputes in court, but that they prefer to resolve their
disputes through arbitration, except as provided herein.
https://www.deere.com/en/finance/financing/terms/consumer-terms/

13/21

5/1/2020

Multi-Use Account Consumer Credit Agreement | John Deere US

IF EITHER YOU OR JDF ELECTS ARBITRATION, NEITHER YOU NOR JDF SHALL HAVE THE RIGHT TO LITIGATE
THAT CLAIM IN COURT OR TO HAVE A JURY TRIAL ON THAT CLAIM. PRE-HEARING DISCOVERY RIGHTS AND
POST-HEARING APPEAL RIGHTS WILL BE LIMITED. THE PARTIES VOLUNTARILY AND KNOWINGLY WAIVE ANY
RIGHT THEY HAVE TO A JURY TRIAL, EITHER PURSUANT TO ARBITRATION UNDER THIS CLAUSE OR
PURSUANT TO A COURT ACTION. NEITHER YOU NOR JDF SHALL BE ENTITLED TO JOIN OR CONSOLIDATE
CLAIMS IN ARBITRATION BY OR AGAINST OTHER CUSTOMER WITH RESPECT TO OTHER ACCOUNTS, OR
ARBITRATE ANY CLAIMS AS A REPRESENTATIVE OR MEMBER OF A CLASS OR IN A PRIVATE ATTORNEY
GENERAL CAPACITY.
Even if all parties have opted to litigate a claim in court, you or JDF may elect arbitration with respect to any claim made
by a new party or any new claims later asserted in that lawsuit, and nothing undertaken therein shall constitute a waiver
of any rights under this arbitration provision. Arbitration may be elected at any time, regardless of whether a lawsuit has
been filed, unless the lawsuit involving that claim or dispute has resulted in a final judgment. JDF will not invoke JDF's
right to arbitrate an individual claim you bring in small claims court or your state's equivalent court, if any, so long as the
claim is pending only in that court and does not exceed $5,000.
Your Account involves interstate commerce, and this provision shall be governed by the Federal Arbitration Act (FAA).
The arbitration shall be conducted by JAMS or American Arbitration Association (AAA), at the option of the party
electing arbitration, in accordance with their procedures in effect when the claim is filed. As of "date of print", for a copy
of their procedures, to file a claim or for other information, contact AAA's customer service at 1-800-778-7879 or visit
their website at www.adr.org or contact JAMS at 1-800-352-5267 or by visiting their website at www.jamsadr.com. All
claims may be filed at any JAMS or AAA office. At your written request, JDF will advance any arbitration filing,
administrative and hearing fees which you would be required to pay to pursue a claim or dispute as a result of JDF's
electing to arbitrate that claim or dispute. The arbitrator will decide who will ultimately be responsible for paying those
fees. In no event will you be required to reimburse JDF for any arbitration filing, administrative, or hearing fees in an
amount greater than what your and JDF's combined court cost would have been if the claim had been resolved in a
state court with jurisdiction.

https://www.deere.com/en/finance/financing/terms/consumer-terms/

14/21

5/1/2020

Multi-Use Account Consumer Credit Agreement | John Deere US

Any arbitration hearing will take place in the federal judicial district where you reside. The arbitrator shall follow
applicable substantive law to the extent consistent with the FAA and applicable statutes of limitations and shall honor
claims of privilege recognized at law. If requested by any party, the arbitrator shall write an opinion containing the
reasons for the award. The arbitrator's decision will be final and binding except for any appeal rights under the FAA and
except that if the amount in controversy exceeds $100,000, any party may appeal the award within 30 days to a threearbitrator panel which shall review the award de novo. The costs of such an appeal shall be borne by the appealing
party regardless of outcome. Judgment upon any award by the arbitrator may be enforced in any court having
jurisdiction.
JDF's rights and obligations under this arbitration provision shall inure to the benefit of and be binding upon JDF's parent
corporations, subsidiaries, affiliates, predecessors, successors, assigns, as well as the officers, directors and employees
of each of these entities, and will also inure to the benefit of any third party named as a co-defendant with JDF or with
any of the foregoing in a claim which is subject to this arbitration provision. Your rights and obligations under this
arbitration provision shall inure to the benefit of and be binding upon all persons contractually liable under this
Agreement and all Authorized Users of the Account. This arbitration shall survive termination of your Account as well as
voluntary payment in full by you, and legal proceedings by JDF to collect a debt owed by you, any bankruptcy by you
and any sale by JDF of your Account.
IMPORTANT INFORMATION ABOUT PROCEDURES FOR OPENING A NEW ACCOUNT. To help the government
fight the funding of terrorism and money laundering activities, Federal law requires all financial institutions to obtain,
verify, and record information that identifies each person who opens an account. What this means for you: When you
open an account, you will be asked for your name, address, date of birth, and other information that will allow JDF to
identify you. You may also be asked to show your driver's license or other identifying documents.
WHAT TO DO IF THERE IS AN ERROR IN YOUR BILL. YOUR BILLING RIGHTS. KEEP THIS NOTICE FOR
FUTURE USE.
This notice contains important information about your rights and JDF's responsibilities under the Fair Credit Billing Act.

https://www.deere.com/en/finance/financing/terms/consumer-terms/

15/21

5/1/2020

Multi-Use Account Consumer Credit Agreement | John Deere US

NOTIFY JDF IN CASE OF ERRORS OR QUESTIONS ABOUT YOUR BILL.
If you think your bill is wrong, or if you need more information about a transaction on your bill, write to JDF (on a
separate sheet) at the address shown on the reverse side of your billing statement. Write to JDF as soon as possible.
JDF must hear from you not later than 60 days after JDF sent you the first bill on which the error or problem appeared.
You can telephone JDF, but doing so will not preserve your rights. In your letter, give JDF the following information:
– Your name and account number
– The dollar amount of the suspected error
– Describe the error and explain, if you can, why you believe there is an error
– If you need more information, describe the item you are unsure about.
If you have authorized JDF to pay your credit card bill automatically from your savings or checking account, you can
stop the payment on any amount you think is wrong. To stop the payment your letter must reach JDF three business
days before the automatic payment is scheduled to occur.
YOUR RIGHTS AND JDF's RESPONSIBILITIES AFTER JDF RECEIVES YOUR WRITTEN NOTICE. JDF must
acknowledge your letter within 30 days, unless JDF has corrected the error by then. Within 90 days, JDF must either
correct the error or explain why JDF believes the bill was correct.
After JDF receives your letter, JDF cannot try to collect any amount you question, or report that amount delinquent. JDF
can continue to bill you for the amount you question, including interest charges, and JDF can apply an unpaid amount
against your credit limit. You do not have to pay any questioned amount while JDF is investigating, but you are still
obligated to pay the parts of your bill that are not in question.
If JDF finds that JDF made a mistake on your bill, you will not have to pay any interest charges related to any
questioned amount. If JDF didn't make a mistake, you may have to pay interest charges, and you will have to make up
any missed payments on the questioned amount. In either case, JDF will send you a statement of the amount you owe
and the date that it is due.

https://www.deere.com/en/finance/financing/terms/consumer-terms/

16/21

5/1/2020

Multi-Use Account Consumer Credit Agreement | John Deere US

If you fail to pay the amount that JDF thinks you owe, JDF may report you as delinquent. However, if JDF's explanation
does not satisfy you, and you write to JDF within 25 days telling JDF that you still refuse to pay, JDF must tell anyone
JDF reports you to that you have a question about your bill. And, JDF must tell you the name of anyone it reports you
to. JDF must tell anyone it reports you to that the matter has been settled between you and JDF when it is finally
settled.
If JDF doesn't follow these rules, it can't collect the first $50 of the questioned amount, even if your bill was correct.
SPECIAL RULES FOR CHARGE ACCOUNT PURCHASES
If you have a problem with the quality of property or services that you purchased with your Multi-Use Account, and you
have tried in good faith to correct the problem with the merchant, you may have the right not to pay the remaining
amount due on the property or services. There are two limitations on this right:
– You must have made the purchase in your home state or, if not within your home state, within 100 miles of your
current mailing address; and
– The purchase price must have been more than $50.
These limitations do not apply if JDF owns or operates the merchant, or if JDF mailed you the advertisement
for the property or services.
YOUR CHOICE TO LIMIT MARKETING
– John Deere Financial, f.s.b. ("JDF") and its credit affiliates are providing this notice. They include Deere &
Company, Deere Credit, Inc., and John Deere Construction & Forestry Company.
– You may limit the JDF affiliate Deere companies, such as the manufacturing, credit, leasing and insurance affiliates,
from marketing their products or services to you based on your personal information that they receive from JDF. This
information may include your income, account history, and credit score.

https://www.deere.com/en/finance/financing/terms/consumer-terms/

17/21

5/1/2020

Multi-Use Account Consumer Credit Agreement | John Deere US

– Your choice to limit marketing offers from the JDF affiliate Deere companies will apply for at least 5 years from when
you tell us your choice. Once that period expires, you will receive a renewal notice that will allow you to continue to
limit marketing offers from JDF affiliate Deere companies for at least another 5 years.
– To limit marketing offers, contact us at 1-800-356-9033.
CR (20-04) Multi-Use Accounts are a service of John Deere Financial, f.s.b.
View printer friendly version of the Privacy Notice below (PDF)
Rev. March 2020
FACTS

WHAT DOES JOHN DEERE FINANCIAL, F.S.B. DO WITH YOUR PERSONAL INFORMATION?

Why?

Financial companies choose how they share your personal information. Federal law gives consumers
the right to limit some but not all sharing. Federal law also requires us to tell you how we collect, share,
and protect your personal information. Please read this notice carefully to understand what we do.

What?

The types of personal information we collect and share depend on the product or service you have with
us. This information can include:
– Social Security number and income
– account balances and payment history
– credit history and credit scores

How?

All financial companies need to share customers' personal information to run their everyday business. In
the section below, we list the reasons financial companies can share their customers' personal
information; the reasons John Deere Financial, f.s.b. chooses to share; and whether you can limit this
sharing.

https://www.deere.com/en/finance/financing/terms/consumer-terms/

18/21

5/1/2020

Multi-Use Account Consumer Credit Agreement | John Deere US

Reasons we can share your personal information

Does

Can you

John Deere

limit this

Financial, f.s.b.

sharing?

share?
For our everyday business purposes - such as to process your transactions,
maintain your account(s), respond to court orders and legal investigations, or

Yes

No

For our marketing purposes - to offer our products and services to you

Yes

No

For joint marketing with other financial companies

Yes

No

Yes

No

Yes

Yes

For our affiliates to market to you

Yes

Yes

For nonaffiliates to market to you

Yes

Yes

report to credit bureaus

For our affiliates' everyday business purposes - information about your
transactions and experiences
For our affiliates' everyday business purposes - information about your
creditworthiness

To limit our

– Call 1-800-356-9033 - at the menu prompt, select 0 and one of our Customer Service

sharing

Representatives will be able to assist you.

Please note: If you are a new customer, we can begin sharing your information 30 days from the date we sent this
notice. When you are no longer our customer, we continue to share your information as described in this notice.
However, you can contact us at any time to limit our sharing.
Questions

Call 1-800-356-9033

What we do

https://www.deere.com/en/finance/financing/terms/consumer-terms/

19/21

5/1/2020

Multi-Use Account Consumer Credit Agreement | John Deere US

How does John Deere

To protect your personal information from unauthorized access and use, we

Financial, f.s.b. protect my

use security measures that comply with federal law. These measures include

personal information?

computer safeguards and secured files and buildings.

How does John Deere

We collect your personal information, for example, when you

Financial, f.s.b. collect my

– open an account

personal information?

– use your credit card or give us your income information
– pay us by check or show your driver’s license
We also collect your personal information from others, such as credit bureaus,
affiliates, or other companies.

Why can't I limit all sharing?

Federal law gives you the right to limit only
– sharing for affiliates' everyday business purposes - information about your
creditworthiness
– affiliates from using your information to market to you
– sharing for nonaffiliates to market to you
State laws and individual companies may give you additional rights to limit
sharing. See below for more on your rights under state law.

What happens when I limit

Your choice will apply to you. Others on your account may limit information

sharing for an account I hold

sharing for the account, or you can also limit sharing information for them.

jointly with someone else?
Definitions
Affiliates

Companies related by common ownership or control. They can be financial and nonfinancial
companies.
John Deere Financial, f.s.b. and its credit affiliates including Deere & Company, Deere Credit,
Inc., and John Deere Construction and Forestry Company.

https://www.deere.com/en/finance/financing/terms/consumer-terms/

20/21

5/1/2020

Multi-Use Account Consumer Credit Agreement | John Deere US

Nonaffiliates

Companies not related by common ownership or control. They can be financial and nonfinancial
companies.
Such as securities brokers-dealers, insurance companies and agents and merchants
participating in the John Deere Financial program who have identified you as their customer.

Joint

A formal agreement between nonaffiliated companies that together market financial products or

Marketing

services to you.
John Deere Financial Merchants

Other important information
California

We will not share information about you with nonaffiliated third parties, except as permitted

Residents

by California law, such as to process your transactions, maintain your account or with your
consent. California law gives you other personal information privacy rights. See
JohnDeere.com/Privacy for more information.

Vermont Residents

We will not disclose information about your creditworthiness to our affiliates and will not
disclose your personal information, financial information, credit report, or health information
to nonaffiliated third parties to market to you, other than as permitted by Vermont law,
unless you authorize us to make those disclosures.

Additional information concerning our privacy policies can be found at JohnDeere.com/Privacy or call 1-800-356-9033.

https://www.deere.com/en/finance/financing/terms/consumer-terms/

21/21

